                                                         U.S. Department of Justice

                                                         Peter J. Smith
                                                         United States Attorney
                                                         Middle District of Pennsylvania

                                                         Website: www.justice.gov/usao/pam/
                                                         Email: usapam.contact@usdoj.gov
William J. Nealon Federal Building    Ronald Reagan Federal Building      Herman T. Schneebeli Federal Building
235 N. Washington Avenue, Suite 311   228 Walnut Street, Suite 220        240 West Third Street, Suite 316
P.O. Box 309                          P.O. Box 11754                      Williamsport, PA 17701-6465
Scranton, PA 18503-0309               Harrisburg, PA 17108-1754           (570) 326-1935
(570) 348-2800                        (717) 221-4482                      FAX (570) 326-7916
FAX (570) 348-2037/348-2830           FAX (717) 221-4493/221-2246


                                                                       Please respond to: Harrisburg


 June 24, 2014
                                          NEWS RELEASE

           OWNER OF WELDING SUPPLY BUSINESS CHARGED WITH ILLEGAL
                   TRANSPORTATION OF HAZARDOUS MATERIALS

      The United States Attorney’s Office announced the filing
 yesterday of a one-count information charging Raymond George,
 age 65, with illegal transportation of hazardous materials in
 connection with his operation of George Welding & Supply in
 Montoursville, Pennsylvania.

      According to United States Attorney Peter Smith, the
 information alleges that from January 2001 through January 2012,
 George fraudulently certified that cylinders containing
 compressed gases used in the welding industry were properly
 tested and found to be safe. The information alleges that
 George’s business was not authorized to test cylinders, but that
 George applied false markings to the cylinders which certified
 that they had in fact been tested. He then leased the
 fraudulently marked cylinders to his customers.

      The government also filed a plea agreement with the
 defendant which must be approved by the Court.

      If convicted of the offense charged in the information,
 George faces a maximum penalty of 5 years in prison, a maximum
 fine of $250,000, and a supervised release term of three years.

      The case was investigated by the United States Department
 of Transportation, Office of Inspector General, Office of
 Investigations. Prosecution has been assigned to Assistant
 United States Attorney George J. Rocktashel.
     Indictments and Criminal Informations are only allegations.
All persons charged are presumed to be innocent unless and until
found guilty in court.

     A sentence following a finding of guilty is imposed by the
Judge after consideration of the applicable federal sentencing
statutes and the Federal Sentencing Guidelines.

     Under the Federal Sentencing Guidelines, the Judge is also
required to consider and weigh a number of factors, including
the nature, circumstances and seriousness of the offense; the
history and characteristics of the defendant; and the need to
punish the defendant, protect the public and provide for the
defendant’s educational, vocational and medical needs. For these
reasons, the statutory maximum penalty for the offense is not an
accurate indicator of the potential sentence for a specific
defendant.


                              ****
